                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDLTM

 Case Number: I06080021                                                                   Page 1 of 1



         Our office received an anonymous allegation that the Principal investigatori (PI) was using NSF
         funds to pay for travel unrelated to two grants.2 We requested the general ledger and supporting
         documentation from the institution3 for both awards.

         From our review of the documentation, we determined all three allegations provided by the
         complainant were unsubstantiated. However, we identified $78,637.18 of funds put to better use.
         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
